OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BOLIVIA’S
FAMILY PLANNING
PROGRAM
AUDIT REPORT NO. 1-511-07-005-P
JANUARY 22, 2007




SAN SALVADOR, EL SALVADOR
                     Office of Inspector General




    January 22, 2007

    MEMORANDUM

    TO:                USAID/Bolivia Director, Michael Yates

    FROM:              RIG/San Salvador, Timothy E. Cox /s/

    SUBJECT:           Report on Audit of USAID/Bolivia’s Family Planning Program (Report No.
                       1-511-07-005-P)

    This memorandum transmits our final report on the subject audit. We have considered
    your comments on the draft report and have included your responses in their entirety in
    Appendix II of this report. Following the issuance of our draft report to you for comment, we
    combined Recommendation No. 5 into Recommendation No. 2 in order to reduce the
    number of recommendations and to simplify the audit follow-up process. This modification
    does not effect the overall recommendations and necessary actions on the part of the
    Mission and was done for reasons of clarity only.

    This report now contains four recommendations intended to improve the implementation of
    USAID’s family planning activities in Bolivia. Based on your comments and the
    documentation provided, we consider that final action has been taken on Recommendation
    No. 3, that management decisions have been reached on Recommendation Nos. 1, 2 and
    4. A determination of final action for Recommendations Nos. 1, 2 and 4 will be made by
    the Audit Performance and Compliance Division (M/CFO/APC) upon completion of the
    proposed corrective actions.

    Again, I want to express my appreciation for the cooperation and courtesy extended to
    my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 5

Audit Findings ................................................................................................................. 6

Did USAID/Bolivia’s family planning activities achieve the desired results
in USAID/Bolivia’s strategic plan, in the Congressional notification, and in
the grant and contract documents?................................................................................... 6

     Program Indicators and Targets Should Be Improved ............................................... 9

     The Mission Should Follow ADS Guidance on Ensuring
     That Reported Results Are Reliable ......................................................................... 10

Evaluation of Management Comments ....................................................................... 15

Appendix I – Scope and Methodology ........................................................................ 16

Appendix II – Management Comments ....................................................................... 20
SUMMARY OF RESULTS
While USAID/Bolivia has made progress towards providing access to quality family
planning services, Bolivia still lags behind most of its peers. Bolivia’s total fertility rate, at
3.8 children per woman, was the second highest fertility rate in Latin America in 2003.
The data on total fertility rates and contraceptive prevalence rates reported in the
National Demographic and Health Survey includes large differences between rural and
urban areas and among women with different levels of education. (See page 2.)

The Mission’s strategic objective for its family planning program was to increase access
to quality family planning services by supporting the efforts of eight implementing
partners. Only two of the partners, Protección a la Salud (PROSALUD) and Centro de
Investigación y de Educación Social (CIES) provided family planning services directly to
clients. The other partners provided family planning-related technical assistance,
information and educational materials to the Ministry of Health and Sports and to non-
governmental organizations. (See page 3.)

The Regional Inspector General/San Salvador conducted this audit to determine if
USAID/Bolivia’s family planning program met planned results. (See page 5.) In Fiscal
Year (FY) 2005, USAID/Bolivia met all four of the selected planned results described in
its strategic plan, in Congressional budget justifications, and grant and contract
documents. The first family planning performance indicator put forward in the strategic
plan was the achievement of a specified level of couple-years of protection (CYP).
USAID/Bolivia’s target in FY 2005 was 375,000 CYP. The Mission achieved 427,835
CYP or 114 percent of its target. The second indicator was the number of condoms sold.
In FY 2005, the Mission had a target of selling 6 million condoms. The Mission exceeded
this target and sold/distributed 7.4 million condoms. The third indicator was the
percentage of facilities without stock-outs of Depo Provera, a three-month injectable
contraceptive drug; the target was 82.9 percent. In FY 2005, the Mission achieved 89
percent availability of Depo Provera. The last indicator was the sale of contraceptives
through the social marketing program of PROSALUD. In FY 2005, PROSALUD achieved
107 percent of its contraceptives sales target. (See page 6.)

While the Mission achieved its planned results, the audit disclosed that program indicators
and targets need to be revised and the system of reporting performance results should be
improved. The report contains four recommendations to improve the quality of performance
indicators and targets (see page 10), to strengthen the reliability of its data collection
systems, to improve the Mission’s periodic data validation procedures, and to ensure that
data quality assessments are performed. (See page14.)

USAID/Bolivia concurred with the recommendations included in this report and began
taking corrective action prior to the completion of the audit’s field work. Additionally, the
Mission’s written comments outlining their action plans to address our recommendations
were detailed and focused on corrective measures that will help strengthen their family
planning program and activities. (See pages 15 and 19.)




                                                                                                1
BACKGROUND
According to a 2001 Bolivian population census, Bolivia has a population of 8.3 million
and women of reproductive age (15-49) constitute 49 percent of the total female
population. Demographically, the population is very young – almost 40 percent are
below the age of 15 – indicating that there is considerable momentum for population
growth. These facts, coupled with the high level of fertility and the low level of modern
contraceptive use, suggests that the population will continue to grow at a fast pace
unless the Government of Bolivia, with the support of USAID/Bolivia, can increase the
level of contraceptive usage, thus reducing the total fertility rate.

Family planning enables couples to determine whether, when, and how often to have
children and is vital to safe motherhood and healthy families. Voluntary family planning
has health, economic, and social benefits for families and communities; such as,
reducing high-risk pregnancies, protecting the health of children by allowing sufficient
time between pregnancies, reducing abortions by preventing unwanted pregnancies,
supporting women's rights and opportunities for education, employment, full participation
in society, and protecting the environment by stabilizing population growth.

Despite the challenges of poverty, political instability, limited infrastructure and socio-
economic inequities, Bolivia has made progress in key health indicators related to family
planning. The total fertility rate (TFR) has decreased from 4.2 children per woman in
1998 to 3.8 children per woman in 2003. The percentage of married women using
modern contraceptive methods1 has increased from 24 percent to 35 percent. However,
despite progress, Bolivia still lags behind its peers. The total fertility rate in Bolivia is the
second highest in Latin America and the contraceptive prevalence rate for modern
contraceptive methods is much lower than in neighboring countries. Moreover, the
National Demographic and Health Survey data presented below in Table 1 shows
significant differences in total fertility rates among urban and rural women and among
women with different levels of education. The TFR of urban and rural women in 2003
was 3.1 and 5.5, respectively. In 2003, the TFR for women with no education was 6.8
children per woman compared to 2.7 for women with 12 or more years of education.
Similar variations were found in the contraceptive prevalence rates among women in
urban versus rural areas and among women with varying levels of education as shown
in Table 1 below.

Table 1 – Total Fertility and Contraceptive Prevalence Rates in Bolivia

                                                                         Contraceptive
                                         Total Fertility Rate
                                                                        Prevalence Rate
    Category of Women                     1998          2003           1998           2003
    National rate                          4.2           3.8          23.6%          34.9%
    Women in urban areas                   3.3           3.1          32.3%          40.3%
    Women in rural areas                   6.4           5.5          11.3%          25.0%

1
    The percent of currently married women of reproductive age (normally defined as the range 15
    to 49 years) who use any form of modern contraception.


                                                                                               2
                                                                   Contraceptive
                                     Total Fertility Rate
                                                                  Prevalence Rate
Category of Women                    1998          2003          1998         2003
Women with no education               7.1           6.8          7.6%        17.8%
Women with 12 years or more
                                      4.6           2.7         27.5%         44.7%
of education

The USAID/Bolivia family planning strategy, as described in the Mission’s Strategic Plan
for fiscal years 2005 to 2009, utilizes a three-pronged approach:

   1. Promote behavioral changes and community empowerment.

   2. Expand the delivery of quality, high-impact health services through health
      networks.

   3. Strengthen institutional capacity with respect to sustainable health care
      management.

The Mission’s plan is targeted to areas of greatest need as defined by poverty levels and
health status indicators, and to areas where other USAID Strategic Objective teams
operate, in order to promote synergy and to maximize the use of limited resources.

The main objective of the USAID/Bolivia-supported family planning program is to
increase the coverage and quality of family planning services in targeted health networks
and among NGO service providers. To meet this objective, the Mission worked with
eight partners:

   1. Programa de Coordinación en Salud Integral (PROCOSI) is an umbrella
      organization of a network of 36 health and community service non-governmental
      organizations (NGOs), working to improve the health of the poor, particularly in
      rural areas of all nine regions of Bolivia. Through its extensive network,
      PROCOSI strengthens the institutional capacity of its member organizations to
      provide reproductive health services. The network assists its member
      organizations by increasing their capacity to provide better coverage and
      services in the areas of reproductive health, child survival, and infectious
      diseases.

   2. Centro de Investigación y de Educación Social (CIES) is the principal institution
      supporting sexual and reproductive health in Bolivia. CIES has nine urban clinics
      in eight of the nine regions of Bolivia and provides a wide range of reproductive
      health services, medicine, contraceptives and related educational services. CIES
      also manages three mobile health units providing services to seven remote rural
      areas in two regions of Bolivia. CIES is a member of PROCOSI.

   3. Protección a la Salud (PROSALUD) manages a network of 27 sustainable
      decentralized health facilities and referral hospitals that provide access to basic
      health services to low- and middle-income Bolivians. It operates in six of the nine
      regions of Bolivia. PROSALUD provides affordable high-quality services to




                                                                                       3
          urban and peri-urban2 communities. Under a fee-for-service model, PROSALUD
          offers a wide range of services that includes general medicine, pediatrics,
          gynecology, prenatal, birth, post-partum, vaccinations, growth monitoring, other
          types of child care, dental care and pharmaceutical and laboratory services as
          well as family planning services. PROSALUD is a member of PROCOSI.

      4. PROSALUD also implements a project called PROSALUD Socios Para el
         Desarrollo (SOCIOS) that provides small grants to a number of non-
         governmental organizations. The grants support the design and implementation
         of local health activities that target the poor. SOCIOS builds capacity within social
         networks to strengthen their advocacy and oversight roles within municipal health
         systems. SOCIOS supports only a few family planning projects while
         emphasizing maternal and child health. In 2005 and 2006 SOCIOS provided
         assistance to 69 organizations and implemented 108 projects of which 36 had a
         family planning component.

      5. Engender Health is a U.S.-based organization supported by USAID/Washington
         global field initiative that provides technical assistance, training, and materials
         supporting family planning and maternal health. They train counselors on family
         planning methods and consultation practices and provide materials for use in
         health facilities. They also strive to improve the quality and accessibility of
         sexual and reproductive health care.

      6. John Snow International (JSI), and its Deliver project, provides technical
         assistance to the MOH Health Networks. They work at the national and
         community levels. They work through the Bolivian health care system and
         provide capacity building and training to increase the quality of health services.
         They work to strengthen sentinel surveillance systems and undertake operations-
         related research to increase the value of the health data used by decision
         makers and train decision makers on the use of the data. They also support
         immunization programs. Their main focus is on child health while Engender
         Health focuses on family planning, maternal and reproductive health. JSI/Deliver
         project provides technical assistance to the MOH to improve their logistics
         system for all commodities, including contraceptives.

      7. The Ministry of Health and Sports (MOH) implements a project called Proyecto
         de Salud Integral (PROSIN II). The original project (PROSIN) was established in
         1998 through a bilateral agreement between the Bolivian Government and
         USAID/Bolivia. PROSIN II is the second phase of the PROSIN project. PROSIN
         II is the project through which USAID/Bolivia provides financial resources,
         technical assistance, training and other support to the public health care system.
         The project promotes women’s empowerment by helping women identify and
         prioritize household health needs, overcoming barriers to the use of quality
         health services, and encourages local health service providers to provide more
         client-oriented services.

2
    Peri-urban areas are outside formal urban boundaries and are in a process of urbanization.
    Some interrelated characteristics include: fast and unplanned growth resulting in, among other
    things, negative environmental health issues and environmental degradation; a significant
    proportion of the population of residents in lower income categories; and service infrastructure
    is inadequate to meet even basic needs.


                                                                                                  4
     8. The Manoff Group provides technical assistance to the members of PROCOSI.
        The technical assistance supports strengthening management capacity and
        coordination and implementing integrated community health programs. The
        Manoff Group is not directly involved in family planning-related activities.

This audit was performed in conjunction with another audit that determined if
USAID/Bolivia had effectively implemented controls and procedures to ensure that
USAID/Bolivia and its implementing partners were complying with the requirements of
the Tiahrt Amendment. 3

During the period covered by our audit, October 1, 2004 through September 30, 2006,
USAID/Bolivia obligated $29.6 million for its family planning implementing partners
including $13.0 million for population-related activities (including funds expended under
Global Field Support). Expenditures over the same period by the Mission’s family
planning partners totaled $22.2 million. In addition, USAID donated $1.2 million in
contraceptive commodities.

AUDIT OBJECTIVE
As part of its fiscal year 2006 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

•    Did USAID/Bolivia’s family planning activities achieve the desired results in
     USAID/Bolivia’s strategic plan, in the Congressional notification, and in the grant and
     contract documents?

Appendix I contains a discussion of the audit's scope and methodology.




3
    Audit of USAID/Bolivia’s Effectiveness in Complying with Tiahrt Requirements, Report No.
    1-511-07-004-P dated December 26, 2006.


                                                                                          5
AUDIT FINDINGS
Did USAID/Bolivia’s family planning activities achieve the
desired results in USAID/Bolivia’s strategic plan, in the
Congressional notification, and in the grant and contract
documents?
USAID/Bolivia met all four of the FY 2005 results targets that we selected for review as
described in the Mission’s strategic plan, in its Congressional budget justifications, and
in cooperative agreements and contract documents. However, as described in the
section beginning on page 9, program indicators and targets need to be revised and
USAID/Bolivia’s system of reporting on CYP-related achievements should be improved.

The 2005 USAID/Bolivia family planning indicators selected for review included (1)
couple-years of protection (CYP4); (2) the number of condoms sold or distributed; (3) the
percentage of health facilities with no stock-outs of Depo Provera; and, (4) the sales of
contraceptives through the social marketing program of PROSALUD. These indicators
were selected because they best measure availability of services and CYP was the only
indicator included in the congressional budget justifications and the annual reports. As
shown in Table 2 below, the Mission exceeded its planned results for all four indicators.

Table 2 – Overall Program Results for FY 2005

                          Indicator                                 Target               Audited
                                                                                         Results
    CYP
                                                                    375,000              427,835
    Number of condoms distributed or sold
                                                                  6.0 million           7.4 million
    Percentage of Facilities with no stock-outs of
    Depo Provera                                                     82.9%                 89%
    PROSALUD Social Marketing Program Sales of
    Contraceptives (in $)                                           900,740              964,815

The Mission achieved 427,835 CYP, representing 114 percent of its target. The Mission
sold and distributed more than 7.4 million condoms exceeding its target by 24 percent.
However, our audit identified opportunities to improve both the process of setting
program indicators and targets (see page 9) and the reliability of the reported program
results (see page 10). Partner-specific results for all four indicators that we evaluated
are shown in Table 3 below.




4
    Couple-years of protection (CYP) is a common indicator used to measure the impact of family
    planning activities particularly in the years in which the total fertility rate is not available from
    survey data. CYP is the number of couples protected from unplanned pregnancies during a
    one-year period. It is calculated based on the volume and type of contraceptives sold or
    distributed during that period multiplied by a specific conversion factor.


                                                                                                       6
Table 3 – Results for Selected Indicators, by Provider, FY 2005


                                                 Number of
                                                                       Percentage of Facilities
         Partner                 CYP              Condoms
                                                                        with No Stock-Outs*
                                               Sold/Distributed

 CIES                           19,540               30,332                       100
 PROSALUD                       12,018               11,177                        96
 PROSALUD Social               168,149             6,616,135                 Not applicable
 Marketing Program
 PROCOSI**                       9,786               11,768                  Not applicable

 MOH                           218,342              770,551                        87
 TOTAL                         427,835             7,439,963                       89
* Data was taken from the Engender Health Acquire project Baseline Survey, 2005. It represents
the percentage of facilities with no stock-outs of Depo Provera during the past six months.
** PROCOSI supported six organizations that provided family planning services.

CIES contributed to improving the health conditions of adult women, men, young people
and teenagers, through the provision of medical and educational services related to
sexual and reproductive health. In FY 2005, CIES achieved 19,540 CYP and sold
30,332 condoms. Additionally, CIES did not experience any stock-outs of Depo Provera
during FY 2005. Based on our interviews with CIES clients and family planning services
providers, we concluded that CIES provided its clients with a high quality of family
planning services. The clients we spoke with praised the quality of services provided by
CIES personnel. CIES made a contribution to the overall achievement of the Mission’s
performance results. However, it was not possible to determine if CIES achieved its
planned results because the Mission had not developed any CIES-specific targets.




                                                        The CIES La Paz Clinic in Bolivia promoting
                                                        an Educational Health day at Plaza de los
                                                        Heroes, downtown La Paz. A CIES staff
                                                        member is explaining different family planning
                                                        methods to people using educational
                                                        materials. The photo was taken by an OIG
                                                        auditor on October 14, 2006.

PROSALUD provided family planning services, improved communications between
health facilities and their target groups through community mobilization activities and
promoted condom use among HIV/AIDS risk groups and family planning users.


                                                                                                    7
PROSALUD achieved 12,018 CYP and sold 11,177 condoms through its 27 health
facilities. Results-related data on CYP and condoms sold were not included in the
workplans or progress reports of PROSALUD. The Mission had not developed any
targets for these indicators which precluded an assessment of planned versus actual
results.

We found no shortages of Depo Provera, a contraceptive drug injected quarterly, or any
other contraceptive commodities on the day of our visits to 5 of the 27 PROSALUD
facilities even though a survey done in 2005 by Engender Health had reported that 3.7
percent of the facilities had experienced a stock-out during the last six months.

PROSALUD also managed a social marketing program which sold and distributed
USAID-donated contraceptives. The social marketing program of PROSALUD sold more
than 6.6 million condoms during FY 2005. In total, the social marketing program sold
$964,815 worth of contraceptives during FY 2005 and exceeded its target as shown in
Table 2. In terms of CYP, the social marketing program contributed 39 percent of the
Mission’s achievement.

PROCOSI provided training, helped develop marketing materials such as posters,
videos, and education materials, and thereby increased the public’s awareness of
reproductive and sexual rights. PROCOSI also provided assistance related to client
comfort and the quality of health care. PROCOSI provided financial assistance to six
organizations implementing family planning services. During FY 2005, PROCOSI
achieved 9,786 CYP and sold 11,768 condoms. However, it was not possible to
determine if PROCOSI achieved its planned results because the Mission had not
developed any CYP target for PROCOSI. PROMUJER, a member of PROCOSI,
implemented a microfinance project that provided women with small loans for income-
generating activities. We interviewed the women at one PROMUJER site and found that
most of the women were using contraceptives. The women stated that the availability of
family planning services at PROMUJER facilitated their adoption of family planning
because they did not have to travel to an MOH center and wait in line to receive
contraceptives. Instead, they were able to receive counseling on family planning and
other health issues at the PROMUJER facility while they were there making their weekly
loan repayment.

John Snow International (JSI), Engender Health, and PROSIN II strengthened the
capacity of MOH-targeted health networks, and NGO service providers, to deliver family
planning services, and provided effective counseling, education and information
materials on family planning. The Deliver Project of JSI and PROSIN II provided
assistance to the MOH in support of ensuring a reliable availability of a mix of family
planning methods. JSI and Engender Health also assisted the MOH by providing training
and strengthening community participation in decision making within the decentralized
health care system. These partners supported a total of 903 facilities out of a total of
2,717 facilities in Bolivia.

The MOH, with USAID and other donors’ assistance, achieved 218,342 CYP, which was
more than 50 percent of the total CYP of 427,385 achieved by USAID/Bolivia in FY
2005. The MOH, with the assistance of USAID/Bolivia’s partners made significant
progress in providing family planning services to an increasing number of persons.




                                                                                      8
Along with successes in the Mission’s family planning program, we noted opportunities
to improve the process of setting program indicators and targets and to improve the
quality of USAID/Bolivia’s reporting on the program. These issues are discussed in the
following two sections of the report.

Program Indicators and Targets
Should Be Improved
Summary: USAID guidance states that performance indicators should measure
progress towards intended objectives and targets should be established through a
disciplined and thoughtful process that considers what can realistically be achieved
under a given program. However, the Mission’s indicators were inconsistent among
program documents and did not reflect the indicators of the Performance Monitoring
Plan. Also, targets for couple-years of protection (CYP) and the number of condoms
distributed did not appear to reflect a rigorous planning process and, additionally, no
performance targets were established for USAID/Bolivia’s partners. These issues arose
because the Mission did not provide adequate oversight during the establishment of
performance indicators and associated targets. Mission staff was concerned that by
establishing family planning targets for partners they could possibly violate the Tiahrt
Amendment. As a result, the Mission could not measure progress towards planned
results and the targets had limited utility to decision makers.

According to USAID’s Automated Directives System (ADS) 203.3.2 operating units are
responsible for establishing systems to measure progress towards intended objectives in
order to track progress towards planned results. The Mission Performance Monitoring
Plan included couple-years of protection, number of condoms sold, and the percentage
of facilities with no stock-outs of Depo Provera as performance indicators that would
measure the progress of its family planning program. However, the agreements,
workplans and progress reports of USAID/Bolivia’s partners did not include these
indicators. For example, CIES did not report on the Mission’s indicators but did report
the number of family planning consultations provided. PROSALUD workplans included
sales of contraceptives under its social marketing program, but did not include targets for
CYP or number of condoms sold through its 27 clinics. In summary, the Mission did not
use for its partners the indicators it identified in its performance management plan to
measure the results of its family planning program.

According to USAID TIPS No. 8, program performance targets should be based on a
careful analysis of what is realistic to achieve, given the conditions within the country,
and other factors. ADS Section 203.3.4.5 states that each indicator should include
performance baselines and performance targets that can optimistically but realistically
be achieved within the stated timeframe and with the available resources. Operating
Units should be willing to be held accountable for achieving their targets. On the other
hand, targets that are set too low become irrelevant and are not useful for management
and reporting purposes. The weaknesses identified regarding the established
performance targets are described below.

•   The five-year program target included in the Performance Monitoring Plan included
    the distribution of 6.8 million condoms by FY 2009. This target had already been
    exceeded by the end of FY 2005. Since the performance target has already been
    surpassed it has become irrelevant, but USAID/Bolivia has not revised the target.


                                                                                         9
•     The 2009 target of 395,000 CYP has already been achieved by the end of FY 2005.
      Since the performance target has already been exceeded it is not useful for
      managing performance.

•     USAID/Bolivia’s partners did not have targets for CYP or for the number of condoms
      distributed or sold which precluded an assessment of planned versus actual results.

•     Neither PROCOSI nor SOCIOS established targets for CYP or for the number of
      condoms sold in their sub-partners’ family planning projects. Therefore, it was not
      possible to determine if sub-partners had achieved their planned results in increasing
      access to family planning services.

•     PROSALUD's social marketing program sold $964,815 worth of contraceptives in FY
      2005, which already exceeded its 2006 target of $701,549. Therefore, it is
      reasonable that the FY 2006 target should be re-examined and adjusted upwards
      accordingly.

The above-mentioned shortcomings in establishing indicators and targets occurred for
two reasons: 1) there was inadequate oversight during the establishment of indicators
and targets and 2) the Mission was concerned that establishing CYP targets for its
implementers might conflict with the requirements of the Tiahrt Amendment, which
restricts the use of quotas or numerical targets. (However, the Tiahrt Amendment only
prohibits quotas or numerical targets for referral agents or service providers – i.e.,
individuals that have direct contact with family planning clients. It does not prohibit
programmatic targets for budgetary or planning purposes.)

The lack of program indicators and targets made it difficult for decision makers to
measure progress made towards achieving program results. For example, the Mission
did not compare the results achieved by its two main family planning service providers,
CIES and PROSALUD, where CIES with fewer health facilities (9 compared to 27)
achieved 38 percent more CYP than PROSALUD during FY 2005.

Without an accurate assessment of program performance, including the performance of
its partners, Mission staff can not make informed decisions on allocating or reallocating
limited resources nor affect adjustments to ensure successful program implementation.
To correct these problems, we are making the following recommendation.

      Recommendation No. 1: We recommend that USAID/Bolivia set realistic and
      consistent indicators and targets for its family planning program and for its
      implementing partners that are consistent with the Mission’s performance
      monitoring plan.

The Mission Should Follow ADS Guidance on
Ensuring that Reported Results are Reliable
    Summary: According to USAID guidance, performance data should be accurate and
    reliable and missions should take steps to ensure that submitted data is adequately
    supported. Among this guidance is an ADS requirement to conduct Data Quality
    Assessments on select indicators to ensure the Mission and other users are aware of


                                                                                         10
 the strengths and weaknesses of the data. The Mission, however, did not complete a
 Data Quality Assessment for its indicators as required. The Mission also lacked a
 clear understanding of Cognizant Technical Officers (CTOs) responsibilities, which
 includes systematically verifying data. Nonetheless, they did not periodically validate
 their reported results. As a result, Mission program results were significantly under-
 reported in fiscal year 2005.

USAID provides its operating units with a great deal of guidance to assist with their
ability to manage for results. Among this guidance is ADS 203.3.5.2, which states that
the purpose of a data quality assessment (DQA) is to ensure that the Operating Unit and
SO Teams are aware of the strengths and weaknesses of the data and of the extent to
which the data integrity can be trusted to influence management decisions. The ADS
mandates that data reported to USAID/Washington for Government Performance and
Results Act (GPRA) reporting purposes or for reporting externally on Agency
performance must have had a data quality assessment at some time within the three
years before submission. It also states that when Operating Units conduct data quality
assessments of data from secondary sources (including implementing partners,
government counterparts, and international agencies), the Operating Unit should focus
the data quality assessment on the apparent accuracy and consistency of the data and
these assessments should be documented in the program files. The Mission, however,
had not performed DQAs on reportable indicators. The lack of an appropriate DQA on
reported program performance results data contributed to the weakness of the data
collection, analysis, and reporting procedures.

Additional guidance is provided in USAID’s Cognizant Technical Officers Guidebook on
USAID Acquisition and Assistance, which states that CTOs are responsible for ensuring
the accuracy of all reports submitted by their contractors and that in order for CTOs to
assess the accuracy of reported results, implementers should be required to maintain
records of reported numbers and describe how those numbers were obtained.

Furthermore, Analyzing Performance Data (TIPS 12 – supplementary guidance referred
to by USAID’s Automated Directives System), states that even valid indicators have little
value if the data collected does not correctly measure the variable or characteristic
encompassed by the indicator. It also states that results-oriented management requires
that reported data be accurate and reliable. CTOs are charged with the responsibility of
ensuring that data reported by implementing partners are accurate. Accordingly, CTOs
are required to perform data verification procedures.

Only three of the Mission’s eight family planning partners (PROSALUD, CIES and
PROCOSI) reported couple-years of protection results because they directly participated
in family planning services while the remaining partners provided technical assistance
and indirect support to the national family planning program. Although USAID did not
provide contraceptives to the Ministry of Health, USAID provided technical assistance to
the national program to increase the quality and availability of family planning services.
FY 2005 data is shown in Table 4 on the following page.




                                                                                       11
Table 4 – Audited Versus Reported Results, by Partner, in FY 2005

    Indicator                  CYP                    Number of Condoms Sold
                    USAID                Variance     USAID
     Source        Reported   Audited      in %      Reported    Audited     Variance

CIES                 16,368     19,540     (16.2%)     38,150      30,332       25.8%

PROSALUD             11,957     12,018      (0.5%)     14,549      11,177       30.2%
PROSALUD's
Social Marketing
Program             172,822    168,149       2.8%    6,173,520   6,616,135      (6.7%)

PROCOSI               9,478      9,786      (3.1%)       9,682     11,768      (17.7%)

MOH                 155,707    218,342     (28.7%)    638,511     770,551      (17.1%)

TOTAL               366,332    427,835     (14.4%)   6,874,412   7,439,963      (7.6%)

SOCIOS is the USAID partner responsible for compiling and computing CYP data for
USAID/Bolivia. SOCIOS received the CYP related data from USAID’s partners. The
MOH data was obtained directly from the MOH website. SOCIOS performed some
analytical procedures on the reported results to verify the adequacy and the validity of
the CYP related data. However, SOCIOS did not have the staff or the capacity to
conduct field visits to the partner sites or to the MOH to validate the data provided to
USAID/Bolivia. Also, SOCIOS did not receive partners' data segregated by individual
health facility or clinic and, therefore, could not perform appropriate clinic-specific
analytical procedures to identify data quality problems. Based on our field visits and
reviews of the data, we found that USAID/Bolivia’s program results were significantly
under-reported. Partner-specific reasons that resulted in discrepancies between
reported and audited results included the following:

CIES

•   The Santa Cruz and Tarija clinics under reported results on contraceptives sold
    during FY 2005 and FY 2006 because of a shortcoming in their computerized
    information system. For example, in FY 2005 the Santa Cruz clinic reported a CYP
    of 894 while the CYP should have been 2,492; a difference of 64 percent, which was
    due to a shortcoming in their computerized information system.

•   The Cochabamba clinic only included the oral pill DuoFem in their reported results
    even though they provided three other brands of pills. As a result, instead of
    reporting sales of 339 cycles of pills during FY 2005, they reported only 61.

•   The Sucre clinic reported not only the number of contraceptives distributed through
    its clinic, but also the number of contraceptives distributed through their social
    marketing program. The same distributed contraceptives were also reported by the
    various MOH health facilities where the contraceptives were sold, resulting in the
    double counting of 613 CYP. These problems occurred because CIES staff did not
    review the quality of their CYP data prior to sending it to SOCIOS and CIES
    headquarters. In this regard, it should be noted that CIES did not have a CYP target


                                                                                         12
    against which to monitor progress, they were not required to monitor and include this
    indicator in their monthly progress reports to USAID/Bolivia, and the CIES staff
    responsible for compiling the data had not received any training on how to report
    data or how to verify the CYP-related data.

PROSALUD

•   The number of condoms sold through the social marketing program and reported to
    SOCIOS did not reconcile with the results reported to the Mission. The number of
    condoms reported to SOCIOS was 6.2 million while according to the progress
    reports sent to USAID/Bolivia, the number was 6.6 million, a difference of 7 percent.
    The number of condoms distributed was under reported due to a lack of data
    verification by both the Mission and SOCIOS.

MOH

•   SOCIOS used quarterly data published on a MOH website to calculate CYP. The
    MOH is constantly receiving updated data for prior periods and revising its reported
    results accordingly. However, SOCIOS did not update their reported results. As a
    result, in FY 2005 instead of reporting a CYP of 218,342, SOCIOS reported a CYP of
    155,707 which represents a level of under-reporting for the MOH of 40 percent.
    Similarly, the number of condoms distributed was significantly under-reported.




                                                USAID through PROSIN II assisted the MOH
                                                Health Network of Santa Cruz. The statistician is
                                                updating and verifying data submitted by health
                                                facilities. The data is then entered into a
                                                computerized national    information    system.
                                                Photo taken by an OIG auditor on September
                                                21, 2006.

As a result of the above-mentioned problems, the Mission reported the achievement of
366,331 CYP while the audited results were 427,835, a difference of 14 percent.
Similarly the number of condoms sold/distributed was significantly under-reported by 8
percent. The under-reporting of CYP-related results was due to Mission CTOs being
unaware of the weaknesses in the data collection and processing system as a result of
periodic data verification testing not being performed. The under-reporting was also
attributable to insufficient staffing resources within SOCIOS to adequately monitor and
validate the data provided to USAID/Bolivia. The data quality problem at CIES was due
to a high turnover of staff and the fact that CIES did not have the capability, including
human resources, to effectively monitor the quality of information. The problem was
exacerbated by the fact that no performance targets were set and the partners were not
required to report on these indicators in their quarterly progress reports. If performance
targets had previously been set for the Mission’s implementing partners, the Mission



                                                                                               13
may have recognized earlier that there were data problems as the performance results
would have contained data anomalies and unexpected performance outcomes.

It is also important to mention that USAID/Bolivia did not include the impact of natural
family planning in its CYP computation. The 2003 Demographic and Health Survey
found that 25 percent of women used natural family planning methods and a 2005
baseline survey conducted by Engender Health found that 22 percent of women used
natural family planning methods. Excluding the contribution of natural family planning
methods in the CYP computation caused the CYP to be significantly under-reported.
During the course of the audit, the Mission agreed to include natural family planning
methods in its CYP computation beginning in 2007. CYP targets will need to be revised
accordingly.

The problems with the partners’ data were not discovered by the Mission’s CTOs
because no data quality assessments were performed and the CTOs did not verify the
quality of the information they received from their partners, as required by ADS
guidance. The Mission did not validate the CYP computation or review the supporting
documentation. Consequently, the Mission may not be consistently reporting accurate
results and assessing the impact of the program. To ensure that Mission managers have
accurate and reliable data for reporting family planning results, we are making the
following recommendations.

   Recommendation No. 2: We recommend that USAID/Bolivia work with its
   implementing partners to strengthen the accuracy and reliability of its family
   planning data collection, analysis, and reporting procedures and systems.

   Recommendation No. 3: We recommend that USAID/Bolivia devise a procedural
   system under which Cognizant Technical Officers will periodically perform
   validation and verification reviews of partners reported results data.

   Recommendation No. 4: We recommend that USAID/Bolivia conduct data quality
   assessments of its family planning performance indicators as required by
   Automated Directive System 203.




                                                                                     14
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Bolivia’s comments to the draft report are included in their entirety in Appendix II.

In its comments to the draft report, the Mission agreed with all of the family planning audit
recommendations presented.

In response to Recommendation No. 1, the Mission stated that by January 31, 2007 it will
have adjusted its Performance Monitoring Plan (PMP) to include additional common
indicators and that realistic target for these indicators will be set through a rigorous process.
The Mission further agreed to develop indicators and targets for their implementing partners
that mirror the Mission’s PMP. Based on the information the Mission provided, we consider
that a management decision has been reached.

In response to Recommendation No. 2 (Recommendation Nos. 2 and 5 in the draft report),
the Mission has already begun working with its implementing partners to strengthen the
accuracy and reliability of its program performance results data. Based on the steps
already taken and those in process, we consider that a management decision has been
reached on this recommendation.

In response to Recommendation No. 3, USAID/Bolivia modified its Cognizant Technical
Officer’s procedures by requiring them to periodically test their associated implementing
partners’ performance indicator data and by creating site visit report forms and checklists
that will support and record these actions. We reviewed the Mission’s new procedures and
documents and found them to be sufficient to address the recommendation. Therefore, we
consider that final action has been taken on this recommendation.

In response to Recommendation No. 4, USAID/Bolivia has agreed to perform Data Quality
Assessments as required by USAID’s Automated Directive System (ADS) 203 guidance.
USAID/Bolivia has developed a reasonable action plan to address this recommendation
and, therefore, a management decision has been made.

A determination of final action with regard to the measures taken by the Mission to address
the recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions.




                                                                                              15
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The objective of the audit was to
determine whether the program achieved the desired results described in USAID/Bolivia’s
strategic plan, in the Congressional notification, and in the cooperative agreement and
contract documents.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to the management of its family planning program. The
management controls identified included performance monitoring plans; the Mission’s
annual self-assessment of management controls through its annual Federal Managers
Financial Integrity Act; and cognizant technical officers’ field visits, reviews of progress
reports, and day-to-day interaction with implementers.

We judgmentally selected sites to visit to ensure a representative mix of partner sites
and urban and rural communities throughout Bolivia and giving preference to MOH sites
that were assisted by more than one partner. In total, we visited 36 health facilities in five
of Bolivia’s nine regions as shown in Table 5 below.

Table 5 - Sampled Sites

                USAID Partner                           Universe               Sample
 CIES urban clinics                                          9                      6
 CIES rural projects (mobile unit)                           7                      1
 PROSALUD                                                   27                      5
 PROCOSI                                                    30                      2
 SOCIOS                                                      6                      2
 Ministry of Health assisted facilities                    903                     20
 Total                                                     982                     36

We visited a higher percentage of CIES and PROSALUD facilities than other partners’
sites because only CIES and PROSALUD were implementers of family planning service
delivery projects. The Manoff Group was not included in our sample because this
partner provided technical assistance to PROCOSI in project management but did not
provide support to health sites.

The audit was conducted at the offices of USAID/Bolivia, the offices of the Mission’s
implementers, and at the Ministry of Health (MOH) and partner-managed health facilities
throughout the country from September 6 to October 18, 2006. The audit covered the
period from October 1, 2004 through September 30, 2006.

The following table lists the project sites visited and includes information on the region,
the implementer, and the number of interviews conducted.




                                                                                           16
                                                                                    APPENDIX I


Table 6 - Health Facilities Visited and Interviews Conducted

                                                                                     Interviews
                                                                       Interviews
                                                                                        with
                                                                          with
   Region            Partner                Site/Facility                              Family
                                                                         Medical
                                                                                      Planning
                                                                          Staff
                                                                                       Clients
                                Hospital Materno Infantil German
 Cochabamba   Engender Health   Urquidi                                    3             0
              PROSALUD          PROSALUD referral hospital                 2             7
              CIES              CIES urban clinic                          1             3
                                Shinaota & Mariposas MOH health
              PROSIN/JSI        centers                                    3             0
              SOCIOS/PROCOSI    PROMUJER, a sub partner                    1             0


 Santa Cruz   Engender Health   Hospital Maternidad Percy Boland           2             7
                                Clinic La Madre and referral
              PROSALUD          hospital                                   5            16
              CIES              CIES urban clinic                          2             9
                                Villa Paraiso and Paillon MOH
                                health centers, Monterico MOH
                                health post and Hospital San
              Engender Health   Ramon                                      2             0
              PROCOSI           CSRA an NGO, sub partner                   1             0


 Chuquisaca   Engender Health   Hospital Gineco-Obstetrico Sucre           1            10
                                CIES urban clinic of Sucre and
              CIES              CIES rural project, Padilla                3             9
                                Hospital Tarabuco, Chuqui Chuqui,
                                El Chaco, and Potolo MOH health
                                centers; and, Surima, La Palma,
              PROSIN/EH/JSI     Imilla Huanusca MOH health posts           8             6
              SOCIOS            CEDERTA and Esperanza Bolivia              2             0


 Potosi       Engender Health   Hospital Daniel Bracamonte                 1             4
              CIES              CIES urban clinic                          2             5
                                Tiquipaya and Porco MOH health
              PROSIN/EH/JSI     centers                                    4             0


 La Paz       Engender Health   Hospital de la Mujer, La Paz               3            14
                                PROSALUD referral hospital El
              PROSALUD          Alto, and Villa Fatima health center       7             3
              CIES              El Alto Clinic                             2             6
              CIES              La Paz Clinic                              1             7
                                                 TOTAL                    56            106


During the period covered by our audit, October 1, 2004 through September 30, 2006,
USAID/Bolivia obligated $29.6 million for its family planning implementing partners
including $13.0 million for population-related activities (including funds expended under
Global Field Support). Over the same period, the Mission’s family planning partners’


                                                                                                  17
                                                                               APPENDIX I


expenditures totaled $22.2 million. In addition, USAID donated $1.2 million in
contraceptive commodities.

Methodology
To answer the audit objective, we visited health care facilities, and MOH regional and
local offices. At those facilities, we interviewed family planning clients, service providers,
and administrators. We collected and analyzed data on contraceptives provided by the
health care facilities, counted inventory, and reviewed reconciliations. We reviewed
documentation produced by USAID/Bolivia. With regard to USAID/Bolivia’s implementing
partners, we reviewed the Partners’ agreements, contracts, documents, work plans, and
progress reports as well as their reports on family planning activities.

We selected the indicators to answer our first audit objective from the Mission's Strategic
Plan and PROSALUD’s agreement. The Strategic Plan included six indicators related to
family planning and we selected three of them. No current information was available for
two indicators: the total fertility rate and the contraceptive prevalence rate because the
most recent National Demographic and Health Survey was done in 2003 and the next
survey to collect this data will not be conducted until 2008. We evaluated the indicator
measuring couple-years of protection (CYP) because it was the principal indicator for the
strategic objective that best measured availability of services and also because it was
included in the congressional budget justification and annual reports. We also selected
the number of condoms sold/distributed and the percentage of stock-out of Depo
Provera as performance indicators that would measure the progress of its family
planning program. Finally, we selected the sales of contraceptives from PROSALUD's
social marketing program because it measures the success of its program.

To validate performance results we compared reported to documented results for a
judgmentally selected sample of family planning data results contained in the MOH
information system database or submitted by implementing partners and sub-partners.
Our testing consisted of tracing contraceptive data contained in the MOH information
system database or in partners’ reports to the family planning counselor registers,
pharmacy records or financial reports concerning the number of contraceptives received
and distributed/sold maintained at the health facilities visited. We also visited six MOH
statistical offices at the local and state levels and compared data contained in the
database to source documents kept by the selected health facilities and CIES and
PROSALUD clinics. We verified the results of PROSALUD’s social marketing program
by tracing reported results to related source documentation. We also verified a sample of
PROSALUD’s family planning commodities supplied to CIES and MOH health facilities
and compared the quantities to PROSALUD’s records.

To confirm the accuracy and reliability of CYP-related data, we reviewed documentation
supporting the reported data and traced the data to source documents maintained by the
MOH and/or USAID partners and sub-partners including CIES, PROSALUD and
PROCOSI. We recalculated the CYP using USAID conversion factors and validated
source data.

Our audit team included a demographer with experience in implementing family planning
and public health activities. To determine the significance of our findings, we judged that
the Mission met planned results if all of the conditions stipulated in indicator definitions


                                                                                           18
                                                                          APPENDIX I


included in the Mission's Strategic Plan and Annual Report were completed as described
based on our review of supporting documentation and our observations during site visits.
In judging the significance of variances found during the audit between reported
accomplishments and supporting documentation, we considered variances of five
percent or more to be significant and reportable.




                                                                                     19
                                                                         APPENDIX II




MANAGEMENT COMMENTS
UNITED STATES GOVERNMENT                                                 Memorandum
                                                                 HSOT-GRAL-23/2006


DATE:         December 21, 2006

REPLY TO:     Michael Yates, Mission Director, USAID/Bolivia

TO:           Timothy E. Cox, RIG/San Salvador

SUBJECT:      USAID/Bolivia’s response to the audit draft report of USAID/Bolivia’s
              Family Planning Program (Report No. 1-511-07-0XX-P)



Under cover of this memorandum we are transmitting our response to the subject
draft audit report, as requested in your memo attached to Darren Roman’s e-mail of
November 24, 2006. We appreciate the opportunity to review the draft of the Audit
Report of USAID/Bolivia’s Family Planning Activities. We are impressed by the
breadth and quality of this audit of our family planning program and thank you for
your valued recommendations. We are pleased with your overall findings that in
FY2005 USAID/Bolivia met all four of the selected planned results described in its
strategic plan, in Congressional budget justifications, grant agreements, and contract
documents. We are providing, as requested, a signed and unsigned electronic copy
of this memorandum.

USAID/Bolivia has supported family planning and reproductive health activities since
the 1980s and has achieved impressive results, as noted in the chart below. USAID
direct assistance has contributed to Bolivia’s tremendous strides in recent years to
provide increased and more equitable access to reproductive health information and
services. Contraceptive use is increasing yearly, although a large percentage of
Bolivians still rely on traditional methods. Modern contraceptive prevalence rates
have increased from 12 percent in 1989 to 35 percent in 2003, accompanied by
notable decreases in the total fertility rates (from 4.9 in 1989 to 3.8 in 2003) and in
maternal and infant mortality rates. Unmet needs for family planning are still high,
estimated at 23 percent of women in union. This issue is especially notable among
rural dwellers and people with little or no education. With USAID’s assistance, both
the Ministry of Health and a number of local NGOs are committed to family planning,
and to reducing maternal and infant mortality rates.

USAID’s support to Bolivia has been key in a number of areas, including: training
health care workers to provide quality family planning; technical assistance for
systems development within the Ministry of Health and NGOs, including
contraceptive logistics; strengthening NGOs which provide family planning coverage;
contraceptives and other family planning commodities and equipment; training
community leaders to support family planning; support for FP/RH information and
education materials and campaigns; and social marketing campaigns to expand the


                                                                                      20
                                                                               APPENDIX II



market for contraceptives. USAID’s assistance was instrumental in the Ministry of
Health’s development of family planning norms in 2001. These norms, based on
voluntarism and informed choice and consent, are now being applied in all Ministry of
Health and NGO service delivery points.

Selected Data Showing Progress in Family Planning and Reproductive Health
in Bolivia: 1989-2003

    Year                                   19895,6       19947       19988      20039

    Total Fertility Rate                       4.9          4.8        4.2         3.8

    Overall Contraceptive                     30.3        45.3        48.3        58.4
    Prevalence Rate
    Modern Contraceptive                      12.2        17.7        25.2        34.9
    Prevalence Rate
    Maternal Mortality Rate (per               372         390        N.A.        229
    100,000 live births)
    Infant Mortality Rate (per                  96           75         67          53
    1,000 live births)

USAID/Bolivia accepts all the family planning audit recommendations and has
developed a plan to implement different actions to address the audit in order to
strengthen internal management and controls and for the closure of the
recommendations. These actions are fully described in detail below. The Operational
Plan (OP) process now underway offers us an excellent opportunity to work with
each of our partners to revise our indicators and targets as recommended by the
audit. This will help us ensure an accurate assessment of program performance of
USAID/Bolivia and its family planning partners, leading to informed decision-making
on the use of limited resources and ensuring successful program performance.

Comments on specific audit findings

      1. Program Indicators and Targets Should be Set Through a More
         Rigorous Process.

      Recommendation No. 1: We recommend that USAID/Bolivia set realistic and
      consistent indicators and associated targets for its family planning program
      and develop indicators and targets for its implementing partners that mirror
      the Mission’s performance monitoring plan.



8
    Instituto Nacional de Estadistica, Demographic and Health Surveys, Institute for Resource
    Development/Macro Systems, Inc. Bolivia: Encuesta Nacional de Demografia y Salud 1989,
6
    Demographic and Health Surveys, Institute for Resource Development/Macro Systems, Bolivia:
    Maternal and Child Health in Bolivia: Report on the In-depth DHS Survey in Bolivia, 1989
7
    Instituto Nacional de Estadistica, Demographic and Health Surveys, Macro International Inc.
    Bolivia: Encuesta Nacional de Demografia y Salud 1998
8
    Ibid.
9
    Instituto nacional de Estadistica, Ministerio de Salud y Deportes, Measure DHS+/ORC Macro,
    Bolivia: Encuesta Nacional de Demografía y Salud 2003.


                                                                                            21
                                                                      APPENDIX II



By January 31 2007, USAID/Bolivia will adjust its Performance Monitoring Plan
(PMP) and include additional indicators based on the common indicators
developed for the USG Operational Plan (OP). The targets for these indicators will
be developed in a rigorous planning process with USAID/Bolivia’s partners so that
the Mission and its partners will have a clear, mutually agreed upon basis on
which to measure progress towards planned results, a method for collecting data
on those indicators and targets, and a plan to ensure that decision makers use
them for making necessary programmatic corrections along the way. Partners’
workplans and progress reports will include these indicators and performance
targets. USAID/Bolivia will utilize USAID’s TIPS No. 6, Selecting Performance
Indicators, TIPS No. 8, Establishing Performance Targets, and TIPS No. 12,
Guidelines for Indicator and Data Quality to assist in this process. USAID/Bolivia
agrees that it needs to set more realistic and consistent indicators and associated
targets for its family planning program and develop indicators and targets for its
implementing partners that mirror the Mission’s PMP.

2. The Mission did not Follow ADS Guidance on ensuring that Reported
   Results were Reliable

Recommendation No. 2: We recommend that USAID/Bolivia verify the
accuracy and reliability of its family planning indicator results including
supporting documentation.

The Mission will work with its partner, Socios para el Desarrollo (which is part of
the local NGO, ProSalud), to ensure that quality data is collected, analyzed and
made available to decision-makers on each of the indicators and related targets
established by all of USAID’s family planning partners. In order to facilitate this
work, Socios para el Desarrollo (Socios) will expand its staff from the current two
to four professionals. It will also train two interns who will not only enhance
Socios’ strategic information data monitoring and analysis capacity, but will also
provide additional trained Bolivian professionals available to work with USAID’s
partners in the future to further ensure the collection and analysis of quality data.
Reporting on each center’s achievements of its indicators and targets will be
more detailed and feedback will be provided to each center based on this analysis
so they can take appropriate action. The expanded staff in Socios will allow
frequent random monthly visits to selected centers to do spot checks on the
quality and accuracy of data collection and reporting. These visits and expanded
data collection methods will allow Socios to analyze clinic-specific data quality,
identify any problems with those data, and work with the clinics to improve their
data collection and analysis.

USAID/Bolivia will also work with Socios to adapt and utilize existing data quality
monitoring guides and check lists to facilitate and standardize the field visits.
Those to be adapted for use in Bolivia, for example, include: USAID’s own
Performance Management Toolkit: A Guide to Development and Implementing
Performance Management Plans, with special attention to the Data Quality
Assessments plan and checklist; and various parts of the TIPS Series. All this
work will follow USAID’s ADS Requirements for Data Quality (ADS 203.3.5.1) that
requires that performance data should be as complete, accurate and consistent
as management needs and resources permit. It will also follow USAID’s ADS
Conducting Data Quality Assessments (ADS 203.3.5.3). As necessary, Socios will



                                                                                  22
                                                                        APPENDIX II



train USAID/Bolivia’s partners in monitoring their progress in achieving indicators
and related targets and in verifying and reporting data.

Recommendation No. 3: We recommend that USAID/Bolivia, in cooperation
with its implementing partners, devise a system under which Cognizant
Technical Officers and implementing partner officials perform data validation
reviews more frequently and efficiently.

USAID/Bolivia’s CTOs will utilize the aforementioned data quality assessment plan
to verify the accuracy and reliability of the Mission’s family planning indicator
results, in line with its new PMP. CTOs will utilize the above-mentioned checklists
for field visits and will closely coordinate with Socios the results of each visit. The
Mission will ensure that the field visits be conducted with regular frequency. As
noted in the response to recommendation #2 above, the Health Team will work
with Socios and the other implementation partners to devise monitoring guides
and check lists to be used in visiting service delivery sites and partners’
headquarters to perform accurate data validation reviews on a regular basis.

Recommendation No. 4: We recommend that USAID/Bolivia conduct a data
quality assessment related to its performance indicators of couple-years of
protection and number of condoms sold/distributed.

The following four actions will be taken to close the audit recommendation:

1. USAID/Bolivia’s health team will revise and adjust the Couple Years of
   Protection (CYP) figures reported for FY 2005, which according to the audit
   report are under-reported by approximately 14 percent.

2. Unfortunately, the Ministry of Health’s National Health Information System
   (SNIS in Spanish) does not provide completely reliable or timely information.
   In fact, the Ministry of Health is often as much as nine months behind in its
   data collection. Because USAID cannot correct the MOH’s problems, it plans
   to make projections of 10% increases in quantitative indicators and targets
   based on the previous three years’ achievements. The FY 2006 report will
   take into account the audit recommendations to ensure that any under-
   reporting due to late Ministry of Health information be minimized.

3. Beginning in FY07, USAID/Bolivia is adding CYP figures for natural family
   planning.

4. Also, what we proposed in response to recommendations 1 and 2 will apply to
   this recommendation as well. USAID/Bolivia will use its data quality
   assessment tool to assess its performance indicators CYPs and number of
   condoms sold/delivered.

Recommendation No. 5: We recommend that the USAID/Bolivia provide
assistance to the Centro de Investigación y de Educación Social (CIES) to
develop a plan to clearly define staff responsibilities related to the monitoring
and verification of its performance data.




                                                                                    23
                                                                           APPENDIX II



      USAID/Bolivia is already working with CIES to resolve this issue. In September
      2006, the CIES Cooperative Agreement was amended with new special
      provisions, including technical assistance and other support to develop accurate
      and appropriate information systems within CIES. In October 2006, CIES
      changed its Executive Director. Under the new Executive Director’s leadership,
      CIES has developed a new strategic plan (FY2007 – FY2011) and is making
      adjustments to its organizational structure to ensure appropriate monitoring and
      verification of its performance indicators. CIES has let its previous monitoring
      and evaluation person go and is in the process of hiring a more qualified strategic
      information person. CIES’ Program Director’s annual performance evaluation will
      include overseeing the entire monitoring and evaluation process. USAID/Bolivia
      will provide TA to CIES to improve its integrated program and financial system to
      ensure quality information for decision-making.

cc:      USAID/Bolivia Controller, Dean Walter
         USAID/Bolivia RLA, Michelle Godette
         USAID/Bolivia RCO, Ralph Koehring
         HEALTH SOT Files




                                                                                      24
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
